Untitled Document
HHS/OIG, Audit -"
Review of Fiscal Year-End Billing for Inpatient Rehabilitation Claims Under
the Administrative Responsibility of United Government Services, LLC for 2002,"(A-01-05-00521)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Fiscal Year-End Billing for Inpatient
Rehabilitation Claims Under the Administrative Responsibility of United Government Services,
LLC for 2002," (A-01-05-00521)
April 6, 2006
Complete
Text of Report is available in PDF format (484 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of our review was to determine
whether inpatient rehabilitation facilities (IRFs) under the administrative responsibility
of United Government Services, LLC (UGS) billed fiscal year-end inpatient rehabilitation
claims in accordance with Medicare requirements during the transition to the prospective
payment system in 2002.  Thirty-four IRFs did not bill 340 fiscal year-end claims
in accordance with Medicare requirements.  As a result, Medicare made net overpayments
of $516,303.  Some IRFs did not have adequate controls to ensure that claims submitted
at fiscal year-end were billed accordance with Medicare requirements, and two IRFs stated
that they had received inaccurate information from UGS.
We recommended that UGS make
the appropriate adjustments to paid claims that resulted in net overpayments of $516,303
to the 34 IRFs and continue education efforts for IRF and UGS personnel.  UGS agreed
with our recommendations.